  NATIONAL DRG VALIDATION STUDY

        QUALITY OF PATIENT CARE IN HOSPITALS





      '+ SI"V'CE$. CI"




 "0



          "ia

OFFICE OF INSPECTOR GENERAL
OFFTC14. OF ANALYSIS AND INSPECTIONS
                                            JULY 1989

                       OFFICE OF INSPECTOR GENERAL


The mission of the Offce of Inspetor Genera (OIG) is to promote the effciency, effective­
ness and integrty ofprogr       in the United States Deparent of Health and Human Servces
(HS). It does this by developing method to detect and prevent frud, waste and abuse. Cre­
ated by statute in 1976, the Insptor Genera keeps both the           Secta
                                                                     and the Congrss fully
and cUlently informed about progrs or management problems and recommnds corrtive
action. The OIG perform its mission by conducting audits, investigations and inspetions
with approxiately 1, 200 sta strtegicaly locate arund the countt.


                  OFFICE OF ANALYSIS AND INSPECTIONS

This report is prouced by. the Offce of Analysis and Insptions (OAI), one of the thee
major offces with the OIG. The other two ar the Offce of Audit and the Offce ofInvesti­
gations. The OAI conducts insptions which are, tyicay, short-term studies designed to de­
terme progr effectiveness, effciency and vulnerabilty to frud or abuse.
Entitled "National DRG Valdation Study, Qualty of Patient Cae in Hospitas,          th
                                                                                study
was conducte to analyze and profie the charteristics of patients who reeived por qualty
car in hospitas.

The report was prepar under the dition of Kaye D. Kidwell Regional Inspor Genera,
and Paul A. Gottober, Deputy Regional Inspetor Genera, Region IX, Offce of Analysis and
Insptions. Parcipatig in   th  project were the followig peple:

             Kathy L. Adm                 Project Dirtor
             Lenar Czjka                  Semor Analyst

             Ruth E. Carlson              Prgr Assistat
             Wm. Mak Krshat               Mathematical Statistici,           HeadU/rters
             David Hsia                   Medcal Offcer, 
           Headuaers
NATIONAL DRG VALIDATION STUDY

     QUALITY OF PATIENT CARE IN HOSPITALS




                 RICHARD P. KUSSEROW
                  INSPECTOR GENERAL




                                            JULY 1989

OAI-09-8-00870
                               EXECUTIVE SUMMARY





PURPOSE
                                                                                 payment
Th insption analyzed the qualty of patient car in hospitas under the prospective
                                                                           radom
system (PPS) based upon the (a) extent to which poo qualty car occured
                                                                            in a
                                                                                  hospitas
samle of hospita, (b) extent to which poo qualty car vared in dierent tyes of
and (c) chartestics of patients who reeived poor qualty car.
                                                               The report is one of a series
in the National Diagnosis Related Group Valdation Study underten by the Offce of'
Inecor Oener (010).

BACKGROUND

Effective Octobe 1983, Congrss madated a change in Medcar payments to hospitas
                                                                                       frm
a cost-bas retrsptive reimburement system to a prospective payment system. Under
PPS, hospitas curntly receive a fied paymnt basd upon 1 of 475 diagnosis related grups
                                                               servces provided or the lengt
(DROs) for each Medicar patient dicharge, regaress of the
of stay. Hospitas reta a profit when patient ca   costs less than the DRG payment, but must
absorb losses when costs exced the DRG. The intent of PPS was to curb rapidly escalatig
incrases in Medicar costs for acute inp tient car by givig hospitas an incentive to reduce
lengts of stay and eliate unecessar seces without compromising the quaty of
patient car. Ths issue was include in the Natonal DRO Valdation Study to detere the
prevalence of por quaty .car unde PPS. Since ther ar no comparble data on the qualty
of car in hospitas prior to the implementation of PPS, we
                                                           canot iner a causal effect
betWeen PPS and por   qualty car.
Unde contrt to the 010, boar-crted physicans with extensive experience in peer
review identid cass of por qualty car bas on an analysis of a radom sample of 7,
                                                                                 050
Medcar patients discharged frm 239 hospitas betWeen Octobe 1984 and Marh 1985.
 Reviewer defied poor qualty car as substada medcal         car  failing to meet
                                                                  clearly


 professionaly reognd     stada under any ciumstaces in any locale.

 Both the utition and qualty contrl peer review organzations (PROs) and the SuperPRO
 (the contrtor which assists the Health Ca Financig Admnistrtion (HCFA) in monitoring
 PROs) review patient hospita stays for poor qualty car. Durg the tie of our review,
 PROs nationally found evidence of poor quaty car in 0. 8 percent of the cases reviewed,
 whie the SuperPRO' s rate was 3. 0 percent. Since HCFA reuird the PROs and SuperPRO to
 review cases using six uniform quality scens these rates have incrased substatially.
 Recent data indicate PROs identified qualty problems in 3. 6 percent of the cases reviewed,
 while the SuperPRO' s rate was 9. 1 percent.
MAJOR FINDINGS
                                                                         qualty car.
   The 010 found that 6. 6 percent of the sampled patients received poor
                                                                         under PPS in
   Prjected nationaly, HCFA paid hospita approxiately $1.2 billon
   Fis Year 1985 for patients with qualty of car problems.
                                                                      medical car
   PROs lacked authority to deny Medcar reimburement for substadad
   durg our review peod Congrss subseuently grted ths authority in the
   Consolidated Ombus Budget Reconciation Act (COBRA) of 1985, but regulations to
   imlement ths provision have not ben issued
                                                                      car since they
   Even though PROs nationaly ar identing more cases of poor qualty
   began using generic quaty scns, rates reportd by both the OIG and the SuperPRO
   rema substatialy higher than the PROs. There contiues to be wide varation among
   PROs in the identicaton of po   qualty car cases.

    Eighty peent of the reasns for por qualty car involved the omission of necessar
    medcal servces (e. faiur to adster appropriate tests for proper diagnosis,
    omission of necessar drgs or therpy); other reasons included
                                                                    errrs leading to

    unecssar .complications or placg patients at incrased risk by providing
    unecssar serces or inadquately documentig medical records.
                                                                              likely
    Patients reeivig por qualty car wer 3 ties more liely to die, 4 ties more
    to develop nosoomial     inecons, twce as liely to have been unecessarly adtted
    hospitas and 76   ties   mo lily to have ben prematuly discharged from hospitas.
                             quaty car wer, on the averge, 3 year olde than
                                                                            patients
    Patents reeivig    por
    reivig apprprat car.
    Most patints reivig substada car had multiple
                                                  quaty problems. Patients with
                                                                     those with
    shor hospita stays averged apxitely the same numbe of prblems as
    long hospita stays.
    Sma ru      and nonteachig hospita had higher rates of     po
                                                              qualty car.

    May hospitas with the highest rates of   quaty patient car also had high rates of
                                              po
    unecssar adsions and prmatu discharges.
    Six.DROs ar fruently assocated with       quality car
                                              po
          DRO     14      (strkes, except trsient ischemic attcks)


          DRO     15      (trsient ischemic   attks)
          DRO     87      (pulmonar edema and respirtory failur)
          DRO     89      (simple pneumonia and pleursy,   patients over age 69)

           DRO 141 (faitig, patients over age 69)
           DRO 320 (kidney and urnar trct infections patients over age 69)
RECOMMENDATIONS
                                                                                           by:
The HCFA should incras its effor   to identi and address poor quality car   in hospitas


                                                                         PROs authority to
     issuig reguations to implement the COBRA 1985 provision givig
     deny Medcar reimburement for patients receivig substadad
                                                                medical   car,

                                                     rate of poor qualty car cases than
     determg why PROs identi a substatialy lower
     either the SuperPRO or the 010,
     developing acceptable diagrment rates betWeen PROs and the SuperPRO for
     identid cass of por qualty car,
                                              rates into PRO performance
     incortig reonciation of high disagrementcontrcts,
     evaluaons for consideration in renewal of PRO
                                                          disagrement rates to identiy
     anyzig qualty. review prtices of PROs with low               assist other PROs and
     exemplar modls and best prtices which could be use to
     reuig tht PROs contiue       to improve their identification and follow-up of cases
     involvig por qualty patient car in o      to better taget problem hospita and
      physicians.

 COMMENTS

 The HCFA commentea on our    dr   report While   HCFA disagres with our methodology for
 deteg      the incidence of po quaty car, it agrs that PRO performance should be
                          impot actions to that effect. .Its
 imved and has taen severthe
                                                                   wrttn comments ar

 prsente in gener followig   reommendation setion of th report and in deta in
                                                            presente in the   comments
 appendi O. A snmm;JT) of HCFA' s subseuent actions also is
 setion of ths report
                                                   ............... .............................
                                                                            . .......................... .........................................;..

                                                                                                                                                  ...........
                      . . .. .. .. .. .. ...................................................................................................................... .. .. .. .. .. .. .. .. .. .. .. .. .. .




                                                     TABLE OF CONTENTS
                                                                                                                                                                                                       Page


EXECUTIVE SUMMARY

INTRODUCTION

FINDINGS

     Mor than 6 percent of the patients reeived poor qualty car
        UDde PPS at a national cost of 1.2 bilon for fiscal year
             (F 1985 ...................................... . . ­
. . . . . . . . . . . . . . . . . .4
                                                                                                    hospitas. . .
      Rates of por     qualty car cass var                                       among

      Most patients receivig substada car had multiple
                                                         qualty of
          car prblems regaress of their lengt of stay in a hospita. .
                                                                 the
      Most of the reasons contrbutig to poor qualty car involved
          omision of necessar medcal seces
      Patents reivig por qualty car were at higher rik of death,
              contrtig nosocomial inections and being unnecessary
               adtt or prematuly                                discharged from hospita

       Olde patients wer at incrased rik of receivig po
                                                                                                                               qualty car
               durg their hospita stays. . . . . .
       Taretig DROs identied cass of po qualty car .

 RECOMMENDATION.




 COMMENTS.




 APPENDICES

         Appendi A:                        Comparson of hospitas by number of poor qualty
                                           car cases: bed size effect
         Appendi B:                        Comparson of hospitas by number of poor quality
                                           car cases: ruurban location status
Appendi C:
     Comparson of hospitals by number of poor quality
                car cases: profit/nonprofit status
                                                            qualty
Appendi D:
     Comparson of hospitals by number of poor
                car cases: teachig/nonteaching status
Appendi E:      Samplig and methodology
                                                     poor qualty

Appendi F:      Distrbution of hospitas by number of 

                car cases


                                            with 6+ poor quality care
Appendi 0:      Charteristics of hospitas
                cases

                Distrbution of patients by numbers of qualty
                                                                  car
Appendi H:

                 prblems
                 Comparson. by tye of hospita: Average
                                                          lengts of
 Appendi I:
                                                         quality car
                 stay for patients receivig poor and goo

 Appendi J:      Reasons for qualty of car problems

 Appendi K:      Dischae diposition for patients reeiving    poor and

                 goo qualty

 Appendi L:      Comparson by    ty of hospita: Average age of
                                           goo qualty car
                 patients reeivig por and

                  Comparson by   ty of hospita: Average age of
                                                    goo qualty car
                  deceased patients reeiving   poor and

                                                                  in most
  Appendi M:      Overrpresentatio of por quality car     cases

                  fruent DROs
                  Poor qualty car cass by major
                                                    diagnostic category
  Appendi N:


  Appendi 0:       HCFA co      ents on the drt report
                                   INTRODUCTION


                                         change in Medicar payments to hospitas frm
Effective Octobe 1983, Congrss madated a
                                            to a prospective payment system (PPS).
a cost-bas retrsptive reimburement system                      1 of 475 diagnosis related
Unde PPS, hospitas curntly reeive a fied         payment based upon
                                                                            provide or
grups (DROs)
for each
                        Medcar patient discharge, regardless of the servces
                                                  car costs less than the DRG payment
lengt of stay. Hospita reta a profit when patient
but must absorb losses when costs excee the
                                            DRO. The intent of PPS was to cur the rapidly
                                                       car by givig hospitas an incentive
escalatig incrases in Medcar costs for acute inpatient
                                                 servces without compromising the qualty
to reuce lengts of stay and eliate unecessar
 of patent car.
                                                        number of intiatives to evaluate the
The Ofcc of Inspto Gener (010) ha underten a                                    completed
                                                             date, the 010 has
effects of PPS on hospta behavior and medcal practices. Toneoplasms)    and DRG 88
valdation studies ofDRO 14 (strkes), DRG 82 (respirtory
(chrnic obstrctive   pulnar   disease), as well as inspections on beneficiar notices under
                                                                                (PROs) in
PPS and activity by the utition and qualty contrl peer review organiztions
identig and handlg inapprpriate dicharges        and transfers. The OIG also has conducted
pre-awar audits of the PRO and SuperPRO conttcts.
                                                                                 hour
 Cunt effor undeay include an audit on patient   hospita stays of less than 24
                                                      iQ. hospitas uner PPS and a sttdy of
 (excludig deths), an ongoing audit of Medcar profits
 DRO 129 (caac arst). An inspon of PRO
                                              performce has prouced the fial report
 on quaty review, sanctions activities and PRO effectiveness.
                                                                           pattrns of
 Another major intitive isthe National DRO Valdation Study, which analyzes
 hospta behavior unde   PPS. The stdy is bas on an analysis of extensive data compiled by
                                                                          the 010. Ths
 the Heth Dat Institute (H!) of Lexigton, Masachustt, unde contrt to the National
 re   on thc quaty of patcnt car in hospita is one in a
                                                        sees generate frm
                                                               such as prematu
 DRO Valdation Study. Other repo in ths series focus on issues hospita adsions and
 dischares frm hospita, the accur ofDRO codg, unnecessar
  shor hoSpita stays.

  BACKGROUND
                                                                        interest grups have
  Since. the inception of PPS, heath car providers, Congrss, and public
  expsse conce that patients ar at incrased risk of reeiving por      qualty car. The
                                                                                 car. The
  Congrss has held heargs    andenacted legislation designed to improve quality of
                                                                       held a symposium and
  Heath Ca Financig Admstttion (HCFA) has conducted researh,    car issues in its 1987 annual
  compiled a summar of pape adssing a rage of quality of
                 Health Car Finacing   Review.   Since December 1987, HCFA has released
  supplement to 


  death rates in hospitasseg   Medcar     patients. Severa organizations, including the
                                                                       Prspective Payment
  Genera Accountig Offce, the Offce of Technology Assessment, the
  Assessment Commssion, the Rad Corporation (under
                                                         contrt to HCFA) and the National
                                                                  addssing varous quality
  Acadmy of Science s Institute of Medicie have initiated studies
   of car issues.

 Concern over qualty of patient car in hospitas is not new to PPS.
                                                                       Pror to PPS, the

fedray madated professional     stada    review organzations (PSROs) requied hospitals        to

conduct speci studies focusing on specic qualty of car issues. Shorty after
                                                                            the
implementation of PPS, PROs replaced PSROs. One of their
                                                                 priar
                                                                     responsibilties is to
assess the qualty of patient car in hospitas. The extent to which PROs
                                                                       identi and
follow-up on   po  qlialty car caes vares widely. BetWeen July 1984 and June 1986, a         tie
fre which encompasses the period of that 0. 8 percent
                                                 PROs reviewed 46 percent of the 15
                                        ths study,
                                                      of the patients received poor qualty
mion PPS    dischares and   detered
car. The   PROs   repo that 36 percent of the 54 PRO-designated aras had no patients with
qualty of car problems. PROs lacked authority to deny Medicar reimburement for poor
qualty car.



Both Congrss and HCFA ar      tag    steps to   strngten PRO identication, follow-up and use
of penalties for cas of por   qualty car:


      The Consolidated Omnbus Budget Reconciation Act of 1985 (COBRA) gave the
      PROs statutor authorty to deny Medcar reimburment for substada car.
      The HCFA reuid PROs to use si uniform screns, commonly referr to as generic
      qualty scns, for every case review    begigwith their second contrct period
      (1986-1988). The scns wer fuer refied in November 1987.
      The HCF A is reuig PROs to assign one of the specified severity levels to
      identied cass of   po quaty car durg their third contr period (1988- 1991).
      Cove      acon must be tan with specied tie fres to improve follow-up.
      PROs must implement these meaur by Apr 1989.

 Curntly, PROs review a 3 percnt radom sample of Medca discharges             acn hospita
                                                                               frm



 with their jurdictions, plus adtional cases to meet other monitorig responsibilties.
 Usig the generc scns, PROs review al cass for apprprite qualty of car.
 SysteMetrcs, a contrtor bett known as the SupeRO, is respnsible for assistig HCFA
 in monitog PRO perorce. The SuperPRO selects a .rdom sample of cass reviewed
 by eah PRO and, usig    the sam scnig          crteria, conducts its own quality reviews.

 OBJECTIVES

 The purse of  th    study was to exame the qualty of patient car under PPS, includig the
 (a) extent to which por qualty ca occur among Medicar patients, (b) extent to which
 po    qualtyca    vared in dierent tys of hospitas and (c) charteristics of patients who
                                                                               car in
 reived    po   qualty car. Since there ar no comparble data on the quality of
 hospita pror to the implementation of PPS, we cannot infer a causal effect between PPS and
 poo quality car.
METODOLOGY
                                        010 sampled 7, 050 Medicare patient records from 239
Using a tWo-stage cluster design, the                                           hospita which
hospitas stred by size. The sample includedbeds)
                                            roughly equal numbers of
                                                 and large (300+ bed). Patient
wer sma (under     100   be),
                          medum (100299
                                       March 1985.
dischares occur between Octobe1984 and
                                             assess the quality of patient car. Poor
The OIG contrte with physicians and nures to       car  faig to meet professionaly
                                                         clearly
qualty. car was defied as substada medcal any locale.
reogn stada under any ciumtaces in
                                          evidence of poor             qualty car.   When nurs
Regite nurs scned medcal reord for                                     physicias
               problems, they refer the medcal reord to boar-certed
identied quaty                           fial determation. Physicians ignore
 with extensive exprience in    pe review for a
                                              dierences in medcal judgmnt about
 ma
 apprate
           prblems or cases involvig honest
             ca   management.   If doumentation   in the medcal  record
                                                                        was so por that

 reviewer could not determe whether there were      quality problems, the patient was
                                                Physicians  prepared nartive
                                                                               summares
 conside to have received approprte car.parcular problem         was counted only
                                                                                    once,
 outlg eah patient     s qualty problems.  A
 regaress of the numbe of ties it       occu   durg a patient s hospita stay. A patient with
                                                eight dierent problems durg the hospita
  eight quaty prblems, therefore, expencednmmar,                   confg
                                                                    the conclusions of medical
                                         case s
 stay. An 010 physician evaluate each
 reviewer on cass of substada car.
                                                                ca by be size,
  The 010   st analyze hospita whersta
                                    patents reeived poor qualtystatu. We also analyze
                                       and teachig/nontehig
  uranlocaton, prfit/nonprfit qualty cass ocurg in its patient sample:
  each hospita by the numbe of po      ummar of the data appear in appendices A
  (a) none, (b) 1-2, (c) 3-5 and (d) 6 or more. A s                        goo car. We
                                                                              use
  thugh D. In adtion, we compar patients
                                                  receivig poor and

  averges and peentages weighte to
                                   adjust for differnces in the si of hospita or patient
                           wer bas on (a) the rate and averge cost of cases with poor
  grupings. Fisal pijectio
  qualty ca by hospita siz and (b) tota PPS discharges in Fiscal Year
                                                                               (F 1985. Appendi
  E prvides fuer inormtion on
                                 the study methodology.
                                                        FINDINGS


MORE THAN                   PERCENT OF THE PATIENTS RECEIVED POOR QUALIT CARE
UNDER PPS AT A NATIONAL COST OF 

                                               $1.2 BILlON FOR FISCAL YEAR (FY) 1985

The OIG found that 46 patients (6. 6 percent) in 159 hospitas received substada medcal
                                                                         car cases identied
car. The 010 fmdig is substatialy higher than the rate of poor quality
by the PROs (0. peent) or SuperPRO (3.0 percent) for the same          period     ti
Although the number of por                   qualty car cass identied by the PROs and SuperPRO has
incrased substatialy sice                   they began using generc qualty screns,
                                                                                   HCFA data comparg
the fidigs        of the PROs and SupePRO (October 1987) indicate that PROs nationaly
identied        only about hal as may por qualty car cass
                                                           (i.e., 3. 6 percnt) durg the four
reviw cycle as the OIG found in FY 1985. There contiues to be wide varation in the
identication of por qualty car cases among PROs and high discpancy betWeen the
fidigs of the PROs and SupePRO. The SupePRO, using the same crteria as a PRO when
reviewig a sample                   of that PRO' s qualty reviews, reported quality of car problems in 9.
 peent of the cass reviewed.
 Prjecte nationaly, HCFA paid hospitas approxiately $1.2 bilion under PPS in FY 1985
 for patients with qualty of car problems. Although the PROs lacked authority to deny
 payment for substada car at that tie, Congrss subsequently grted ths authority. The
 HCFA has not issued regutions to imlement ths legislation.

 RAES OF POOR QUAl CAR CASES VARY AMONG HOSPITAL
 As the fonowig char indicates, the 010 identied a wide varation in the rates of por
 quaty car cass in hospita. Although medcal reviewer found no instaces of por qualty
 car in 80 hospita (33. 5 peent), 21 hospita (8. 8 peent) had at least 6 cases of poor
 quaty car (20 peent or more of their sampled patient records). In one hospita, more than
 hal the sampled patients reived substada car. A mor detaed breakout of
                                                                                these
  hospitas appear in appendi F.


                                    DISTRIBUTION OF HOSPITALS BY NUMBER OF
                                      POOR QUALITY CARE (QC) CASES (N=239)

                              # QC       Cas              # Hospitals             Percent
                                                                                    33.
                                     1- 2                                           40.
                                     3-5                                             17.
                                    6­
                                                                             ......................."........................"
                                             . ........ ............ .......... ........................ ....... ... ..............




                                   Types of Hospitals

                         cases of por qualty car in term of hospita bed size,
                                                                                                        urbanrual
The 010 sta analyzed
location, profit/nonprofit status and teaching/nonteaching status.
                                                                      patient car (11.4
Bed Size. Sma hospitas had the highest overal rates of por qualty
                                    medum hospitas and 3. 5 percent in large hospitas).
peent, compar with 5. peent incomparg          hospitas by frquency of poor quality car
Th trnd is more pronounced when                                     medum and lare
cass. As the fonowig table indicates, more than 40 percent of the
                                                             7 percent of smal hospitas. In
hospita had no qualty of car prblems, compard with 12.
contrt, only 1.3 perent of the  lae hospitas and 5 percent of the medium hospitas had 6 or
                                                                         compar with 20.
mor   po  quaty car cases (at least 20 percent of their patient sample),
pe cent of the   sm hospitas.
                                COMPARISON by BED SIZE:
                 FREQUENCIES of POOR QUAUTY CARE (QC) CASES
                                    N=239
 Peren of   Hoit



                                            - ............ 24 i.".."....





             OQC                   2QC
                          C Sm (Na79 EJ Medium (N=8O IS Lage
                                                               3-SQC
                                                                             (N=80)
                                                                                                        6+ QC


                                                                                                                           car
 Urbailural Loction. Rur hospitas had higher overa rates of poor  qualty patient
                                                             this trnd is more
                                           hospitas). Agai,
 (10.7 peent, compar with 4. peent in uran                 car                             cass. As the
 prnounced when      comparg hosita by fruency of poor                   qualty

  fonowig table indicate , 42. 2 peent of the uran hospitas had no                     qualty of car problems,
  compar with     19. 6
                    peent of the    ro
                                    hospitas. Only 2 percent of the urban hospitas had 6
                                                                    hospitas.        ru
  or mor poor qualty car cass, compar with 19. 6 percent of the
                                            .. ........... ....
                                                            .... ..........................................................................
                                                             ... ..........  ...............................................................
                                                                  ...................................................   .. .......................
                                                                                                               .:::: .:?:;:
                                                                                                              ...              ...
                                                                                                                            . ::::.
                                                                                                                               ' ..




                          COMPARISON by RURAUURBAN STATUS:
                         FREQUENCIES of POOR QUALITY (.QC) CASES
                                          N=239
Percent of   Hopit




              OQC                      2 QC
                                      a Rur (N=92 IS           Urb (N=147)
                                                                          3-5                                       6+ QC




 Prtit/onprofit Hospitas.            Over rates of poor qualty car cases were sim                                                for profit
  (5.7 peent) and nonprfit (6.7        percent) hospitas. Ths was                        also tre          when      comparg
  fruencies of poor       qualty   ca cases In both tyes of hospitas.
                          COMPARISON by PROFIT/NONPROFIT STATUS:
                        FREQUENCIES of POOR QUAUTY CARE (QC) CASES
                                           N=239
   Per of Hoit




                                                                                                    ................4.



                   OQC
                                      tJ
                                           2
                                           Pr
                                              QC
                                               Nopr
                                               (N=23 m1
                                                                             3- QC
                                                                                (N=216)
                                                                                                                      6+ QC



   TeachingIonteaching Hospitals. Nonteaching hospitas had a higher overal rate of poor
                                                                                     Again, this
   qualty     ca cass CI. peent compard with 3. 0 percent in teaching hospitas).
                                                                                            cases.
   trnd is more pronounced when comparg hospitas by fruency of por qualty car car
                                                                  hospita had no quality of
      . the followig table indicates, 49. 2 perent of the teachig
                                                                         Only 1. 6 percent of the
   prblems, compard with 28. peent of the nonteaching hospitas.
   tehig hospitas had 6 or more por quality car cass, compar with 11. 2 percent of the
    nonteachig hospitas.
                       .......... ...... .... ........ .   ... ......... .... ............. ............ ........... ..............................................




                        COMPARISON by TEACHING/NONTEACHING STATUS:
                        FREQUENCIES of POOR QUALITY CARE (ac) CASES
                                          N=239
Percent of Hospital
            49.

                                                    Ut.


40 ...




10 ...

              OQC                                          2 QC
                                                a Teaing (N=61)               1m
                                                                                               3- QC
                                                                                   Nonteaing (N=178)

 Other Prblems in Hospita With High Rates of Poor Quality Care Cases. The
 hospitas with 6 or mor por qualty car cases treate only 8. 8 percent of the patients in the
 fu samle       050 cases), but they accounted for 15. 3 percent of the unnecessar adssions,
                  (J

 46. 0 percent of the prematu discharges and 38. 2 percent of the poor quality car cases.
 Addtiona inormtion on these hospitas can be found in appendi O.

 MOST PATIENTS RECEIVING SUBSTANDAR CAR HAD MULTIPLE. QUAL
 OFCAR PROBLEMS                               STAY IN A HOSPITAL
                                              REGARLESS                     OF     THEIR LENGTH                      OF




 Reviewer found 1, 331 prblems contrbutig to the substada car received by the
 patients in the sample. As the following table indicates, only one- four of the patients had a
 sigle qualty of car problem. The rage ra as high as 16 dierent problems for 1 patient. A
 more detaed breakout of the number of qualty car problems per patient appear in appendi



                                    DISTRIBUTION OF PATIENTS BY NUMBERS OF
                                                   aUALITY CARE (aC) PROBLEMS
                                                    (1331 Problems in 464 Patients)

                          # QC Problems                                      # Patients                                Percent
                                                                                    115                                    24.
                                     2- 3                                          225                                     48.
                                     4- 5                                                                                  19.

                                    10 - 16                                                                                 1.3

                                                                                    was higher for
Over, patients averaged 2.9        problems. The average number of problems
                                                                (2.4). Patients in
patients in sma hospitas (3. 1) than patients in large hospitas
hospitas also averged mor problems (3. 2) than patients in
                                                              uran hospitas (2. 6).
Diferences betWeen     profit/nonprofit and teachig/nonteaching hospitas were negligible.

Patients reeivig    po  qualty car who had short hospita stays averaged approximately the
                                                                               patients who
same  num     of problems as those who had long hospita stays. For example, hospita
                                                 6 problems, while patients with
spnt less than 4 days in the hospita averaged 2.
staysof 14 to 77 days averaged 2. 9 problems.
                                                              average lengt of stay (ALOS)
In hospitas clasifed as lare, urban or teachig facilties, the
for patients reeivig substada medcal car was 2. 5 to 3 days longer than patients ALOS
reivig approprte car. In ru                  hospitas, the opposite was tre where
                                                              poor car
                                                                                    por qualty
                                                                                    was     siar
was 2. 3 days shorer. The ALOS for patients reeivig goo and
other tys of hospitas. For more             spc
                                         deta, see appendi I.


MOST OF THE REASONS CONTRIBUTING TO POOR QUALIT CARE INVOLVED
THE OMISSION OF NECESSARY MEDICAL SERVICES

 Reasons for   po qualty car, ilustrted with tyical examples, fell into four classifcations:
       Necessar care omitted.         A patent with a histor of epilepsy, well contrlled              by

       medcaon, was  adtt to theforhospita           attk. Whe under car for
                                                           suferig a hear

       his ca             or contiuation    of hi medcation to contrl the epilepsy
                    condition, an
       was omitt in er. The day af adssion,
                                                          seiz, the patient fell
                                                                as a result of a

       out of be   an broke his leg.
       E"ors contbutng. to                    A patient underwent successfu surgery
                                                          levels led to kidney faiur. A
                                   complicatons in care.


       for an aoc aneursm. Faiur to propely monitor fluid
       prur    necessar to diagnose the kidney
       of th ao wher the surger had
                                                                    a bloo clot on the inside
                                                              faiur dislodged
                                           ben performed The clot blocked an arery, and the
        patien s right leg had to be amputated.
        Unncessar care placing patient at increased         A patient was
                                                                rik.                adtt
                                                                                  to the
        hospita with jaun ce, excess abdominal fluid and weakess. The only tratment for
        the patient s condition consisted of morhie injections, which would not have relieved         frm the
        any of the symptoms. The patient was placed at potential risk of side effects
        drg.
        Inaquate documntatin               o/the medical record plaing patient at   increased risk.



        patient was   adtt        to the. hospita after faling and breakng both hips. The physician
                                                                       bloo cirulation to the bran.
        diagnose that the       fal resulte frm faiting due to poor

        Ther was no documentation in the medical record that the physician
                                                                              ordred tests to
                                                                    document the patient
        rue out other possible explanations for the fall. Failur to
        problem properly could have resulted in an inaccurte medcal
                                                                        diagnosis and tratment.
As the followig char indicates, most of the 1, 331 quality problems involved the omision of
                                                                         qualty car appear
necssar mecal servces. A more detaed breakout of reasons for poor
in appendi

                  REASONS CONTRIBUTING to POOR QUALITY CARE
                                  N=1331




                                                   always the predomiant reason for
 Among hospita, the omision of necssa seces was               out of 10 qualty prob­
 po  quaty ca. As the followig tale indicates, approxitely 8
 lem in  sm        and nontehig hospita feU into      th
                                                     category. Ths was tre regaress
 of whether hospita wer prfit or nonprfit.


                  REASONS CONTRIBUTING TO POOR QUALITY CARE
                     BY TYPE OF HOSPITAL (PERCENT) (N=1331)

                            Necy                       Unnecesry
                                                            Car
                                                                          Inade­
                                                                          quate
                               Cae         Compli­
                             Omitted       cation          Provided       Doc
    Varble
                                                                           4.4        100
    Small           803        83.
                                             10.             9.4                      100
    Medium          330        77.
                                             22.                                      100
    Large           198        67.
                                                                                      100
     Rura            871       83.
                                             15.                                      100
     Urban           460       72.

                                             18.                                       100
     Teaching        148        67.
                                             10.                                       100
     Nonteach.       183        81.
                                                                                       100
      Profit         110        80.
                                              11.                                      100
      Nonprofit      221        79.
                                    WERE AT HIGHER RISK OF DEATH,
PATIENTS RECEIVING POOR QUALIT CARE
                                      BEING UNNECESSARILY AD­
CONTRACTING NOSOCOMIA INFECTIONS AND
Ml7ED OR PREMATURELY DISCHARGED FROM HOSPITALS
                                                                             Overa, 16.4 percent
Patent receiving poor quality care were three times 17re     likly to die.

                                                                        compar with 5.
of the panents reeivig por quaty car died durng their hospita stays,
        of the patients reeivig approprite car. For a
                                                      breakout of patient discharge
pent
dispsitions, includig deth, see appendi
                                                               receivig poor qualty car
As the followig table indicates, the death rate among patients
vared by        ty
              of hospita with higher rates in smal,    ru, profit and nonteachig hospitas.


                          COMPARISON BY TYPE OF HOSPITAL
                                                             DIED
                PATIENTS RECEIVING POOR aUAUTY CARE (aC) WHO

                                            TOTAL                #QC
                                            DEATHS           DEATHS
                                            (N::22)           (N=76)           PERCENT
                CHARCTRITIC
                                              127                                 25.
                Sma                                                                18.
                Medum                         148
                                              167                                  10.
                Lae
                                                                                   28.
                Rur                            157
                                                                                   11.2
                Urban                         285

                                                                                   25.
                Prfit                                                              16.
                Nonprfit                       418

                Teachig                        125
                                               317                                 20.
                Nonteachig


                                                   tis as likely to deelop    nosocomial
 Patent receiving poor quaity     care were four
  infections.    Over, 21.3 percent of the patients reeiving por qualty ca contrcted
                                                                        compar with 4.
  nosocomial inecons (i.e., infections acquir      durg a hospita stay),
                      reeivig apprprate car. As the followig table
                                                                       indicates, there was
  pent of the patentsbetWeen poor quality car and nosocomial infections, regaress of
  a strng relationship
  hospita charcteristic.
                           COMPARISON BY TYPE OF HOSPITAL
                    PATIENTS RECEIVING GOOD AND POOR QUALITY CARE
                         CONTRACTING NOSOCOMIAL INFECTIONS

                                               POOR CARE                     GOOD CAR
                                                     % NOSOC.                        % NOSOC
         CHARCfRlTICS                  (N=464)             INC.        (N=6,586)      INC.
                                         259                13.            017
         Sma                                                21.4         2,266
         Medum                           122
                                                            32.            303
         Lae
                                                            14.4           391
          Rur                            285
                                                            27.            195
          Urban                          179

                                                                           650
          Prfit                                                            936
                                          425               22.
              Nonprfit
                                                            37.            770
              Teachig                                                      816
                                                            17.
              Nonteachig



Patent receiving poor quait          care were tWice as likly to be   adtted to hospital
              Of those patients reivig por quaty car, 19 percent
                                                                                 wer unecessar
adsions, compar with 9.9 peent of the patients reeivig
uncessarly.
                                                         appropriate car. Twelve

pent  of the 740 unecessar adssions in the study sample received por qualty car.
                                      more          times as likely to be prematUely
Patent receiving poor quaity         care were       tha    76



dichagedfrm hospita. 

                        Of those patients receivig poor qualty car, 13. 4 pecent also
 wer dischared prematoly frm hospitas, compar with only 0. discharges in the study
                                                                 18 percent of the patients

 reivig apprprte   car. Eighty-four percent of the 74
                                                      prematu
 sample ha quaty of car problems.

  OLDER PATIENTS WERE AT INCREASED RISK OF RECEIVING POOR
                                                                                       QUAL
  CAR DURING THEIR HOSPITAL STAYS


                         poor qualty car were, on the average, 3
                                                                    year older (76. 8 year) than
  Patents reiving
  patients       reeivig approprte car (73. 8 year). There was a
                                                                     strng relationship betWeen age
                                                                   appendi L).
  and por   qualty car, regardless of hospita varable (see
   An age comparson of patients who died in hospita
                                                      revealed a simlar trnd. The average

   age of deeasd patients who reeived poo ca was 80.
                                                           yea; the average age of deceased
                                                                   5 year). This trnd was
   patients who reeived goo car was 77. 6 year (a difference of 2.
    also tre       acss most hospita varables (see appendi L).
TARGETING DRGS IDENTIFIED CASES 

                                                        OF   POOR QUALIT CAR

                                                                  2 percent) occurd at least
At the tie     our review, there were 468 possible DRGs; 352 (75.
                   of
once in the study sample. Caes of        qualty car occur in approximately one-
                                               po                                             th
                                                            which occur in the 10 most
these DROs. The 010 sta analyze poor qualty car cases
fruent DRGs in the fu patent saple, as well as DRGs which hadqualty  (a) the highest numbers
                                                                            car occur
of  po  quaty car cass (at least 10 cases) and (b) high rates (poor
              nt of the tie). Analysis was based on DRGs assigned by the fiscal
                                                                                 intermedar.
leat 10 



                                                                                    the
Poor QuaDty Car Among the Most Common DRGs in the Patient Sample. Among
10 DROs which occur most fruently in the sample, poor
                                                         qualty car cases were
                                                                             reeivig
overprsente Collectively, these 10 DRGs represent 41.6   percent of patients
     quaty car, compar with 31. 3 percent of patients reeivig goo
                                                                     qualty car.
 po                                                                           frquent
Appndi M lits a breakout of por and goo qualty car cases among the most
DROs.
                                                                        followig table lists
 DRGs. With the Highest Numbers of Poor Quality Care Cases. Thecar cases. These
 the 12 DROS which ha4 the highest absolute numbers of poor quality
 DRGs closely             mir
                       the most common DRGs (al 12 were among the 20 DRGs which
 occu      most fruently in the samle). For example, DRG 89 (simple pneumonia and
                                                                       car cases and was the
 pleursy, patients over age 69) had the highest number of poor quality
 second most common DROto occur in the study sample.
                                                                              MDCs ar classifcations of
  Al DROs fal into 1 of 24 major dignostic categories (MCs).
  meca prblems                           system. Ther was at least 1 cas of   po qualty car in 21 of the
                          quaty car cas fell into 3 categores: (a) ciultory system,
                 by oran
  MDCs, but ha of the               po
  (b)   respirsystem and (c) digestive system. A breout of por qualty car cases by
  MDC classication appear in appendi N.
                          DRGS wr          mGHE NUERS                  OF POR QUALIT CARE (QC CAES


                                                                                                        TOTAL
     DRG                           DESClON                                                    CAES     SAMLE     CAES

           SILE PNONI AN PLEY, PATI                                                                      351      10.
           OVE AGE


           HEFAIUR AN SHOC                                                                               388
     127

           STOKE, EXCEPT'IISCHC ATIACK                                                                   217      12.4


     182   DIGES DISRDER. PAT                             OVE AGE                                        245

           TR ISC                          ATIACK                                                        146      11.


     140   CHPAI                                                                                         261       6.1


           NUONALAN MIOUS                                        MEABOUC
                                                                                                         173
           DISORDER, PATI                 OVE       AGE



           ICNEY AN URARY1RcrINcrONS,
           PAT            OVEAGE
                                                                                                         107       11.2


           BRONCH AN
           AGE
                                     AS PATI                     OVE
                                                                                                         179


     141   FAIG, PATI                   OVE      AGE 69                                                            12.

           PULONARY EDEM                  AN REToRY                FAIUR                                           11.


     174   GASOINAL HEORRGE. PATI                                                                        113
           OVEAGE




DRGs with the Highest Rates of Poor Quaity Care Cas. The followig table descrbes
15 DROS wher at least 10 percent of the cass reflecte por qualty car. (Te table
excludes DRGs which occm less than 30                              tis
                                               in the fu sample. ) Although may of
these DROs had lower number of por quality car cases than the DRGs listed in the
predg table          patients with these DRGs had the highest
                   likelihood          of receivig poor quality

car. For example, DRG 416 (bacterial bloo infections) had the highest rate of poor quality
car cass (17. 7 perent).
                     DRGS   wmTH mGHE               RATE OF POR QUALIT CARE (QC CASES
                                                        (N=46
                                                                                         # OfQC    Tot
     DRG                    DESCRON                                                MDC    Cas     Sample

     416   BACIBLOOD INCIONS. PATI OVE                      AGE 17                                         17.

     123   DEA BYHE ATrACK                                                                                 16.

           SEI.I HEACH PATI OVE                    AGE 69                                                  15.

     172   DIGB MAGNANC1 PATI OVE                    AGE 69                                                13.5

     316   KINBFAI wrOUTDIAYSI                                                                             13.3

     141   FAIG, PAT        OVE AGE                                                                        12.
                EXCBTRSIJSC ATICK
           S'OKE,                                                                                 217      12.4

     144   HBDISRDBR wr COMPUCA110NS                                                                       12.1

     132   AIOSOS. PAT                 OVE AGE                                                             11.

           TRISCHC ATCK                                                                           146      11.

           KINEY.I URARY1RCrINCIONS, PATI OVE                             AGE 69                  107      11.2

     180   GASOINAL OBSUCION, PATI                      OVE         AGE                                    11.1

           PUONARYBDBM.I RETORY FAIUR                                                                      11.

     134   1n1"iRICrSlON                                                                                   10.3

           SILE PNONI.I        PI.         PATI OVE           AGE                                 351      10.




Six DROs appe in both tables, indicatig                     occur fruently as poor qualty car cass
in   te                                              they
        of absolute numbe and also had high rates of por qualty car. These DRGs,
reprsentig 23. 9 percent of the       po
                                  qualty car cases, include:


             DRO 14         (strkes, except trsient ischemic attcks)

             DRO 15         (trsient ischemic          attacks)
             DRG 87         (pulmnar edma and respirtory failur)
             DRO 89         (simple pneumonia and pleury, patients over age 69)
             DRO 141         (faitig, patients over age 69)
             DRO 320         (kidney and         urnar trct infections, patients over age 69)
                                RECOMMENDATIONS


IMPROVE PRO IDENTIFICATION OF CASES INVOLVING PATIENTS RECEIVING
POOR QUAUT CAR IN HOSPITALS

FIING: The 010 found that 6. 6 percent of the patients sampled in the National DRG
Valdaon Study reeived por     qualty car.  Although the number of poor qualty car cases
identied by the PROs has   incrd   substatialy since they began using generic qualty
scns, reent data indicates that nationaly they identied only about hal as many cases (3.
                                                           found a much higher rate of
pent) as wer found in the 010 study. The SuperPRO alowide
po   quaty car cass (9. 1 percent). There contiues to be       varation in the
identication of  poquaty car cases among PROs and high      discrpancy   betWeen the
fidigs of the PROs and SupePRO.
Dug the peod of our revi w, PROs laked authorty to deny payment for poor qualty car.
They wer grte th authorty with the enactment of a COBRA 1985 provision.
Reguations to implement th meaur have not been issued

Hospita and   patient charterstics   assoated with   poor quality car include:

     Sma,     ru and nonteachig hospitas had higher rates of por qualty car cases.
     Hospita with the highest rates of por qualty patient car      percent or more of their
                                                                  (20
          led patent  reor)  accounte for only 9 percent of the patients in the sample, but
     ha 15 peent of al unecessar admsions, 46 peent of prematu discharges and
     38 pent    of the por quaty car cases.
     Patients reivig po quaty ca wer 3 ties. mar likely to die, 4 ties more likely
     to develop nosoomial inecons, twce as liely to have been           adttunnecessary to
     hospita and 76 ties mo liely to have ben dischared prmatuly frm hospitas.

     Most patients reeivig substada car had multiple qualty prblems. Patients with
     shor hospita stays averged apprxitely the same number of problems as patients
      with long hospita stays. Eighty percent of the reasons contrbutig to     po
                                                                                qualty car
      involved the omission of necessar medical servces.
       Patients reeivig poor quality car were, on the average, 3 year older than patients
      reeivig appropriate car.
      Six DRGs were assocated fruently with      por qualty car.
RECOMMNDATION: The HCFA should incras its effort to identify and adss poor
qualty car in hospitas by:

     issuig the reguations to implement the COBRA 1985 provision givig PROs authority
     to deny Medcar reimburment for patients receiving substadad medical car,
     deteg         why the PROs identi a substatially lower rate of poor qualty car cases
     than either the SuperPRO or the 010,
     developing acceptable diagrment rates between the PROs and SuperPRO for
     identied cass of poo qualty car,
     incortig reonciation of high disagrment rates into PRO performance
     evaluaons for consideration in renewal of PRO contrts,
     anyzg qualty review praties of PROs with low disagrement rates to identiy
     exemplar modls and best prtices which could be use to assist other PROs and
                              to improve their identication and follow-up of cass
      reuig that PROs contiuepatient
      assote with por qualty         car to better taget problem hospitas and
      physicis. Appraches might include focusing on (a) tyes of hospita with high rates
      of patients reeivig por qualty car, (b) DRGs which ar fruently assocated with
      po   quaty car and (c) patients at highest risk of receiving poor qualty car.


I1ACT: The      010 estites that HCFA paid hospitas   approxitely $1.2 bilon in
1985 for patents with quaty of car problems. Th amunt represents the    maum savigs
th could be achieved thugh imlementation of reguations alowigthePROs  to deny the
                                                                  reguations would
enti DRO payment for substada patent car. Implementation of
plac the burn of enforcg goo qualty car stada upon hospitas. and physicians. We
exp th the inCidence of por quaty patient car would decras as qualty stada
incrase.
                                     COMMENTS


The HCFA provided comments on our drt report Whe HCFA agred with, and has taen
action on, most of our reommndations, it took issue prary      with the methodoloy we used
to evaluate qualty car, Le., medical record review absent personalzed dicussion with
                                                                     th
attndig physicians. We wer awar of these concerns when we began inspection and
instcte the medcal reviewers not to count as poor qualty car any cas where there was
any doubt whatsver. Thus, we tred to weight the review to factor in what would have
occm     had we emulate a localze PRO review. (Appendi 0 contas HCFA' s detaled
wrttn comments.


The HCFA ha taen the followig actions which respond to our recommendations:

      The HCFA issued a Notice of Prposed Rulemakng (NRM to give PROs the
      authorty to deny Medar reimburement for patients who reeived substada
      medal car. Ths reguaton is scheduled to beome final in August 1989. The NPRM
      incortes an estite PRO denial rate of 1 percent, resultig in savigs of $550
      mion over a 5-year period

      The HCF A has implemente a positive proedur change to determe why the PROs
      identi a substatialy lower rate of por qualty car cass than either the SuperPRO or
      the 010. Specaly, HCFA has expande its regional sta expere and has
      imlemente a re-review press to analyze and act upon the dierences betWeen the
      PRO and Super PRO fidigs.


      The HCF A has incorped crteria into the PRO review protocol to      detee
      aceptale disagrment rates betWeen the PROs and SuperPRO for identied       cases of

      po quaty ca.
      The HCFA now conside PROISuperPRO disagrement rates as documentation when
      dedig whether to renew PRO contrcts.
The 010 contiues to believe that the rates of por quality car ar unacceptably high and
hopes that HCFA' s new PRO review prtool wi result in the undipute identication and
remey of    po qualty cass. As par of our contiuing concern about the qualty of patient
car, we recently issued a fial report entitled "National DRO Validation Study: Short
Hospitations" and curntly ar studying sureries as a prector of por qualty car.
                                                                                          CAS:   BE     IZE     FfECT      119
                          CDARISO Of HOITAlS BY II
                                                          Anl    s of U 7. 05
                                                                100-29 Beds (Ns8)

                                                                                                              300 Bed (N=80)
                            c100 Beds (N=79)
                                                                                                         1 - 2          3 - 5   6 - 17         OVer­
                                                                1 - 2   3 - 5   6 - 17

                           1 - 2   3 - 5   6 - 17                                                                                               Att
 Hospi tals

   wi th ac                                                                                           Cases Average Average
                                Cases Cases Average Cases Cases Cases Cases Average Cases Cases eases
    Cases           Cases Cases


                                                                                                 72.          12_        72_     67.     72.    73.
                                                    75.   73.    73.     73.     74.      73.
Av. Pt. Age
        75.     75.     76.     76.
                                                                                                                                 11.
Av. Lngth. Stay
                                                                                                                         28.                    38.
                                                    79.   29.    25.     26.              30.
" Rural             70.     73.     84.     93.
                                                          17.    14.     26.              17 .
    ofi t
                  14.
                                                                                                  63.         52.        14.    100.     55.    12.
                                                          20.    22.     13.              18.
" Teaching


" Cases

Nosoc. Infec.
" Cases
                                                                                                      '8.         12.                    10.
                                            19.     12.                   15.     15.     10.
Umec. Admi     ts           11.      10.

" Cases
                                                                                  39.     37.         38.         51.     33.    38.     39.
                                    38.     45.     40.   41.    34.      42.     44.
lnapp. Doc.         37.     39.
                                                                                      CUA         CA          CAS     lE    IZE         FfECJ         11159
                                                     ITALS         8I                       Lln
                           CDARISO Of
                                                                                     oo aut 
  itv           Ca Ont
                                                                              100-29 Bed (M=46)                                   SOOt Beds (M=44)
                               c100 Beds (N=69)

                                                                                                                            1 - 2          3 - 5        6 - 17         OVr-
                                                                              1 - 2     3 - 5     6 - 11
      Hospi tals
          1 - 2        3. 5   6.
       wi th QC
                                                                                                            Ca... Cases                 Cases Average Average
                                                                Cases Cases Average Cases
        Cases       Cases Cases Cases Cases Average Cases Cases
                                                                                                                      MIA
                                                                        MIA
N"'                 N/A
                                                                                                              76.     MIA     74.               73.      73.     74.    16.
                                        79.    76.           78.        MIA    76.        75.      73.
Av. Pt. Age          N/A     79.
                                                                                                                      MIA     13.                                12.
                                                                        MIA
Av. Lngth. Stav      MIA
                                                                                                                      MIA                       28.                     46.
                                               93.           81.        MIA    25.        26.          75.    30.
X Rural              MIA     73.         84.
                                                                                                                      MIA
                                                                                                                                                                         10.
                                                             10.        N/A    14.         26.                17.
X Proft t            N/A     14.
                                                                                                              17.     MIA     52.               14.     100.     47.     19.
                     MIA                                                MIA    22.         13.
X Teaching
X Cases
                                                                                                      21.     MIA     36.               18.       12.    32.     21.
                                         15.                 13.        MIA    25.          14.        15.
Nosoc. Infec.        MIA      16.

 X Cases
                                                                                                     14.     N/A         18. 06        31.              19.     17.
                              17.        12.    24.          17.        MIA    11.          18.        18.
 Umec. Achi t&       N/A

 X Cases
                                                                                                     32.     MIA         51.           64.       50.    53.     42.
                                         46.    48.          41.        N/A    29.          36.        38.
 lnaw. Doc.
         N/A      35.
                                                                                                CAS       BE     SIZE E FfECf   (
                                               alS           Of                ITY    pR (
                        IDARISO OF HO                  II         58                 lity Care Caes Onl
                                                                       100-299 Bed . (N=80)                          300 Bed (N=80)
                          c100 Beds (N:a79)
                                                                                                                   Over-
                                                                                                                   1 - 2   3 - 5    6- 17
                                        6 - 17                     1 - 2     3 - 5     6 - 17
  Hospi tals            1 - 2   3 - 5                                                                               All
   wi th ac                                                                       Cases Cases Cases Cases Average Average
                                                                    Cases Average
    Cases         Cases Cases Cases Cases Average Cases Cases Cases


                                                                                                13.       12.       12.     12_      64.    11.   73.
                  15.    15.     76.     76.         15.   13.         13.    13.       14.
Av. Pt. Age
                                                                                         .5.                                         12.
Av. Lngth. Stay
                                                                                        15.     30.                         28.                   38.
                  70.    73.     84.     93.         79.   29.         25.    26.
  Rural
                                                           11.         14.    26.               11.
" Profi t
               14.
                                                                                                18.       63.       52.     14.     100.    55.   12.
                                                           20_         22.     13.
" Teaching


" Cases

No!.o). Infec.


" Cases
                                                                                                                    10.                   10.
                          10.    10.     16.         11.                       14.      14.
Umec. Achi ts
" Cases                                                                                         39.        31.       31.    50.      21.    38.   39.
                  37.     40.    36.     43.         39.   41.         34.     43.      41.
lnapp. Doc.

                                           APPENDIX 8





               aJARlsa Of      IIITALS BY      II         Of PO c:Lln CA
                                               lDCTlCM STAro          11-29
                                                                                        CAS:
                                        iYs ;s   of aU 7 05
                           Rural (Na92)
                                   Urba (N=147)
                                       6. 11
                         1 - 2   3 - 5   6 - 17          Over­
 Hospi tals
            1. 2 3. 5                                                                      All
  wi th at                                                           Average Average
    ClSes        Case Case Cases Case Average Case Cases Cases Cases
                         34.
                                75.     16.         75.        72.     72.     73.     72.     72.     73.
Av. Pt. Age      75.    75.

Av. Lnth. Stay
                                                                       12.     15.     33.     12.
X Profit

                                                               48.     42.     15.     33.     41.     25 .
X Teacing
                                72.     83.         68.                14.     15.     33.     10.     33.
X c100           38.     75.

X 100.29                                                                       57.     33.     38.     33.
Bed              55.     20.     18.    16.         26.        38.     31.
                                                               56.     53.      26.    33.     51.     33.
X 300
X ClSes

Nosoc. Infec.
X caes                                                                          15.     17.             10.
Um. Aci ts                       10.     17.         11.

 X Cases                                                                                        39.     39.
                  31.    39.     36.     44.         39.        39.     36.     48.     46.
 lnapp. Do.
                 aJAl   SC Of HOITALS BY             IU Of fI ClITT
                                               BA LOCTlaI STATU               1=159
                                                                                      CA            CASES:

                               ANt     i. of 46 Po                ti    Ca Ca Q,t
                               Rural ( -74)                                         Urban (M=85)

  Hosi tals             1 - 2    3 - 5      6 - 17                           1 - 2    3 - 5      6 - 17            OVer­
   with QC                                                                                                          All
      Caes       Case   Cas caes            Case Average Case Caes Cases Cases Average Average
                  MIA                                                  MIA

Av. Pt. Age       MIA    79.         78.      75.        79.           MIA   75.        74.       76.        75.    76.

Av.   Ln. Stay    MIA                                                  MIA    12.                            10.

S Proftt          MIA                                                  MIA    12.          15.    33.        14.    10.

S Teaing          MIA                                                  MIA   42.           15.    33.        36.    19.

% c100            MIA    75.         72.      83.        75.           MIA    14.          15.    33.        15.    43.

S 100-29
Bed               MIA    20.         18.      16.        18.           MIA   31.           57.    33.        37.    28.

  30 Be           MIA                                                  MIA    53.          26.   - 33.       47.    27.
S Cas
Mos. Infec.       MIA    14.                             14.           MIA   32.           12.               26.    21.
S Caes
Um. Acits         MIA    13.         11.      24.        15.           MIA    17.          24.    26.        19.    17.

S Caes
lna. Doc.         MIA    36.         39.      48.        40.           KIA    41.          53.    51.        44.    45.
                 aMARISC OF HOITALS BT              II             OF fI ClLln        CAE       CAS:
                            Anl       is of 6
                                               BA LOCTUJI STAnJ 

                                                 58 Go Qul                  Care   Ca Onl
                                Rural (N-92)                                        Urba (N-147)
  Hospitals              1 - 2    3 - 5    6 - 17                            1. 2 3 - 5       6.           Over-
                                                                                                            All
   wi th QC

    Caes          Case             Caes Case Average Case Case                        Cases Cases Average Average



Av. . Pt. Age     75.     75.       75 .    76.          75.         72.      72.       73.   70.      72.   73.

Av. Lnth. Stay

X Profit
                                                                     12.       15.   33.      12.

X Teaching                                                           48.      42.       15.   33.      41.   25.

X c100 Bed        38.     75.       72.     83.          68.                  14.       15.   33.      10.   33 .

X 100-29
Bed               55.     20.       18.     16.          26.         38.      31.       57.   33.      38.   33.

X 300                                                                 56.     53.       26.   33.      51.   33.


Nosoc. Infee.
X Cases

Um. Adi ts                          10.     15.              10.                        13.    16.           10.

X Cases

 InaFI. Do.       37.     39.       36.     43.           39. 33 . 39.        36.       47.   45.      39.   39.
                                                APPENDIX C




                 aJARISI Of HOITAlS BY
                               PRIT
                                                    IU         OF PO
                                                    -PRIT STATU

                                                                          CIIn
                                                                          1I9
                                                                                   CA           CAS:
                                        CAn         is of aU 7 05
                         Non-Profi t (N-216)                                  Profit (N=23)



 Hospitals               1 - 2   3. 5    6 - 11                            1 - 2   3 - 5      6 - 17         Over-
   wi th ac                                                                                                   All
    Cas           Cases Case     Caes                 Average Cases        Case Cases Cases Average Average


Av. Pt. Age       13.     13.     14.     75 . 7'        14.       13.      72.         13.    72.     72.    73 .

Av. Lnth. Stay

X Rural           24.     36.     55.     90.            40.                27.         40.            21.    38.

X Teaing          40.     30.                            21.                                                  25 .

   100 Bed        13.     33.     50.         75.        33.                45.         20.   100.     30.    33.

X 100-29
Bed               31.     26.     30.         20.        30.       100.     36.         SO.            60.    33.

X 300             48.     39.     19.                    36.                18.                               33.


Nosoc. Infec.                                                                           10.


um. Acits                         11.         17.                           16.         18.    30.     15.     10.

X Cases

lnapp. Doc.        38.    36.     41.         44.         39.       42.     44.         45.    53.     44.    39.
                  CCARlsa OF HOITALS IT       OF PO
                               PRIT -PRIT STATU
                                                     IU                      ClLlTY CAE
                                                                              11159
                                                                                                     CAS:
                             (An     is of 46 Po 
               li     Care Ca

                          Non-Profit (N-142)                                           Profit (N=11)



 Hasi tals                1 - 2   3 - 5   6 - 17                               1 - 2       3 - 5   6 - 17         Over-
      wi th ac                                                                                                     All
       eaes               ease Caes ease.              Average        ease Case Caes               Cases Average Average

                    MIA                                               MIA


Av. Pt- Age         MIA    76.     71.      76.          76.          MIA        18.        76.     77.     77.    76.

Av.   Lnh. Stay     MIA                                               MIA


X Rural             N/A    36.     55.      90.          48.          MIA        27.        40.             29.    46.

X Teaching          MIA    30.                           21. 13       MIA                                          19.

X c100              MIA    33.     50.       15.         43.           N/A       45. 105    20.    100.     41.    43. 100

" 100-29

Bed                 MIA    26.     30 .      20.                       MIA       36.                        47.    28.

  30 Be             MIA    39.     19.                   29.           MIA       18.                        11.    Zl.

" ea..                                                                                      26.                    21.
Mosoc. Infec.       MIA    28.     14.                   22.           MIA


" Caes                                                                                                              17.
Ume. Ac ts          MIA    15.     20.       22. 107     17.           MIA        22.               66.     18.


 1J1. Do.           MIA    37.      47.      48.         41.           MIA        54.       33.     66.     49.     42.
               (DAiISC OF HOITALS BY              IU          OF fI ClITT           CA            CAS:

                            Anl
                                    PRIT          -PRIT STATU
                                                    Go CUli            Care   Ca O'l
                                                                               Profit (N=23)

                          Non-Profi t (N-216)


                                  3. 5     6.                            1. 2 3. 5              6 - 17          Ovr.
 Hospitals                1 - 2                                                                                 All
  wi th
                                  Caes Cases Avenge Case                            Cases Case Average Average
      Caes         Case


                                           75.         73.       73.      71.            73.     71.     72.     73.
Av. Pt. Age        73.     73.     74.

AV.   Lnth. St8Y
                                           90.          40.               27.            40.             21.     38.
X Rural            24.     36.     55.
                                                        27.                                                      25.
X Teacing          40.     30.
                                            75.         33.               45.            20.    100.     30.     33.
X c100             13.     33.     50.

X 100-29                                                                  36.            80.             60.     33.
Bed                37 .    26.     30.      20.         30.     100.

                                   19.                  36.               18.                                    33.
X 300              48.     39.

X Caes
Nosoc. Infec.
X Caes                                                                                    21.     20.     15.     10.
 um. Acits                          10.     15.                               16.

 X Caes                                                                       44.         47.     50.     44.     39.
 lnapp. Doc.        38.     36.     40.     43.          38.      42.
                                              APPENDIX D





                 CDARISO OF HOITAlS BY
                                 TEI
                                                 Nl        Of PO QUITT CA

                                                 -TEACHIIiG STAlU            N=29
                                                                                              CAS:
                                        Arl     is of All 7     050

                        Non-Teaching (N=178)                                  Teaching (N=61)


                                                                        1 - 2      3 - 5   6 - 17           Over-
                        1 - 2   3 - 5   6 - 17

 Hospi tals                                                                   All
  ..i th                                           Cases Cases Cases Average Average
   Cases         Case Case Caes Case Average Cases



                                         16.        14.        11.          11.     14.     61.      11.     73.
Av. Pt. Age      14.     14.     14.
                                                                                            11.
Av. Lnth. Stay
                                          90.       51.                                                      38.
X Rural          36.     48.     51.

X Profit          12.    14.     13.                12.

                                                    43.                                                      33 .
   100            20.    45.     50.      SO.

X 100-29
                                                                           66.              24.     33.
Bed               54.    30.     34.      20.       36.         23.         22.

                                  15.                20.        16.         70.     33.     100.     12.      33.
X 300+            26.    24.

X Caes
Nosoc. Infec.
X Caes                                                                                                        10.
 Um. Adi ts               10.     13.     18.        11.

 X Caes                                                                              66.     33.      34.     39.
 lna. Doc.        41.     39.     42.      45.       41.         34.         33.
               aMMJSD Of HOITALS BY
                                  TEI
                                                  IU   Of p(
                                                  -TEJNG
                                                                     Clun
                                                                           11159
                                                                                  CA            CAS:
                                                  Po awl i
                                                            STAlU
                                                                    Care   Ca      OnL


                          Mon-Teaching (M    '28)                            Teaching (M=3')

                                                                       1 - 2  Over-3 - 5      6 - 17
                          1 - 2   3 - 5   6 - 17
 Hospi tals                                                                    All
  wi th 

                                 Case Average Case Cases Cases Cases Average Average
   caes          Case Case Cases
                                                              MIA
                 MIA

                                                     71.                   75.         69.     73.     74.    76.
Av. Pt. Age
      MIA      71.     71.     76.                MIA

                                                               MIA         14.                         13.
Av. Lnh. Stay     MIA

                                           90.       57.       MIA                                            46.
X Rural           MIA      48.     57.
                                                     12.       MIA                                            10.
X Profit
         MIA      14.     13.
                                                     52.                                                      43.
 . c100           MIA.     45.     "50.     80.                MIA


" 100-29
                                                                              66.             25.    28.
                           30.     34.      20.      29.       MIA         22.
Bed               MIA

                                                     17.        MIA        70.         33.     100.    67.    27.
" 300 Be          MIA      24.      15.

" Caes                                                17.       MIA        42.                  12.    37.    21 .
 Mosoc. Infec.    MIA       20.     16.

 " Cases

                                                      19.                               11.                    15.
 UM. Adfts         MIA.     19.     18.     23.                 MIA.


 " Cases

                                            46.       42.                   38.         44.     50.     39.    42.
 lnapp. Doc.
      MIA      40.     46.                         MIA.
              aJARISO Of HOITALS BY
                                TEI
                                              UI Of pa ClITT     1--29
                                                                       CA           CAS:

                        Anl
                                         ID-TEING STAro
                                           Go Quli Care   ca                O1l

                                                                   Teaching (N=61)
                        Non.Teacing (N-178)

 Hospitals              1. 2 3. 5      6. 17                    1. 2 3. 5           6.            Over.
                                                                                                   All
                                                         Cases Cases Cases Cases Average Average
  wi th QC
   Caes          Caes case Cases               Average



                                        16.      14.     71.    11.          14.    64.    11.     13 .
Av. Pt. Age      74.    14.     14.
                                                                                    12.
Av. Lnth. Stay
                                        90.      51.                                               38.
X Rural          36.     48.    57.

X profit         12.     14.    13.              12.

                                        80.      43.                                               33.
X c100           20.     45.    50.

X 100-29                                                         22.         66.           24.     33.
                 54.     30.    34.     20.      36.     23.

                                                  20.    76.     10.         33.33 100.    12.      33.
X 300            26.     24.    15.

X Caes
NOS. Infec.
X Caes                                                                                              10.
 um. Acits                       12.     16.      10.

 X Caes                                                                       36.    27.    34.     39.
 lna. Doc.        41.     39.    42.     44.      41.     34.    33.
                                          APPENDIX E


                              SAMPLING AND METHODOLOGY

The National DRO Valdation Study used a strtied two-stage sampling design based on
hospitas. The sample divide the population of hospitas meeting the study s eligibilty
crteri (outled below) into      th
                                grups based on bed size: less than 100 bed, 100 to 299
be, 300 or more bed.

The fit  stage use simle radom sampling without replacement to select 80 hospitas within
each grup for a tota samle siz of 240 hospitas. First, it included only acute care,
short-stay facties. Ths test also exclude specialty institutions such as chidrn s hospitas.
Second, as of October 1, 1983, a waiver proviion exempted New York, New Jersy,
Masachusett and Marland frm PPS. Therefore, the sample excluded facities in these
States. Thd, each facty had to have contrbute data to the constrction of the initial
relave weights assigned to DRG categories at the sta of PPS. These initial relative weights
deved frm a 20 percent sample of Medcare discharges from facilties parcipating in the
prgr      in 1981. To be   include in the samplig fre,     a   facilty had to both (a) contrbute
discharges to the   constrction of the initial relative weights and (b) parcipate as a provider at
the   begig of PPS, October 1, 1983.
The effective unverse of hospitas avaiable for study numbered 4, 913. Of the intial sample
of 240 hospitas, l facty    terate  its Medcar eligibilty betWeen the samplig tie           fre
and the actual collection of medcal reord. The fit-stage sample therefore include 239
(4. 9 percent) radomly selected short term acute car facties eligible unde the Medcar
prgr      since at least 1981 and not located in a waiver State.

The seond stage of the design employed systematic radom sampling to select 30 Medicar
discharges from each of the 239 hospitas. The HCFA' s Burau of Data Management and
Strtegy supplied a list of al fial bils they received frm the fiscal intermediares though
Apri 30, 1985. Each bil represente one Par A Medicar discharge for the time period
October 1, 1984 to Marh 31, 1985. If a facility had fewer than 30 discharges durng the
applicable period all available Medicar discharges were selected

Record Collection

In mid- 1986, the OIG sent registered lettrs to the selected hospitas requesting copies of the
complete medcal record for each of the sample dischares. Admnistrtive subpoenas
compelled the parcipation of a few institutions. Of the 222, 396 record avaiable from the
239 hospitas, the sample design reuested 7, 076  (3. 2 percent). The study ultiately received
and reviewed 7, 050 (99. 6 percent) medical records. The hospitas could not locate the
remaning 26 records.
Medical Review

Registere nures initialy screned the medical records for incidents relating to poor qualty
car. If problems were found, the medcal record was referrd   to boar-certfied physicians
with extensive experience in per review. Upon confmnng a case where a patient received
por quaty car, the physici dictated a nartive summar descrbing the natu of the
prblems and citig supportg evidence frm the patient char This methodology pareled
the press used in local per review and by the PROs. Reviewers were insnucted to ignore
maral prblems or cases involvig honest dierences in medical judgment about
appropriate case management.

Medcal exprt   reviewed   reord presentig specialty car issues. Physician panels convened
to dede   dicult cases. Most of the reviewig physicians had recent experience with patient
car. An   010 physician reviewed each case, confing the conclusions of the medical
reviewers.

Analysis
We compar charteristics of 46 patients who received poor quality car with 6,586
patientsreivig    approprite car. Varbles selected for analysis were descrptive (e. g., age),
fushed insight into fianci considerations (e. g., average lengt of stay) or indicative of the
quaty of patient car. Comparsons used averages and percentages weighted to adjust for
diernt sis of grupings (e. g., patients receiving poor and goo car).
Analysi of por qualty   ca in dierent tyes of hospita followed HCFA's pratices for
classig hospita by demogrphic       charcteristics-uran     ru location, teachig status,
and be si. The adtional classifcation category, profit/nonprofit status, was derived frm
the American Hospita Assocation Guie to the Health Care Field.

A hospita was considere to be:

      urban if it was located within a stada metrpolita area as defined by the Burau of
      the Census,
      teaching if it had an accrted residency progrm,
      for-profit as designated by the American Hospita Association,
      sma if the HCFA-certed bed size was less than 100 beds,
      medum if the HCFA-cered bed size was between 100 and 299 beds,
      large if the HCFA-cerfied bed size was more than 299 beds.
These classes of hospitas became a centr basis for analysis of selected varables, again using
weighted averages and percentages. To the basic classifications of
                                                                   urbanlocation,
                                                               medium/arge  bed siz,
teaching/nonteachig status, profit/ nonprofit status and smalV
ad      fuer diviion-the fruency of poor qualitY car cases in hospitals. This permtted
                                                  no poor qualty car cases and small
comparsons, for example, betWeen small hospitas      with
hospitas with six or more por qualty car cases.

Fiscal Projections

      Firt, prjections were mad using the actual dollar paid for the 7,050 Medicar number
      patients in the sample (derived frm HCFA PATBIL f1es). We multiplied the
      of patient discharges in each be size category by the average cost per discharge in bed
      si   categories for a tota in rounde figus. Caculations show the tota
                                                                                dollar paid to
                                                                                       were
      sampled hospitas in the the be size categories. Smal hospitas, for example,
                                                                      186 per patient.
      paid $4. 98 mion for 2,276 discharges at an average cost of $2,




                                                            Small     Medium            Large
   All admiions (N=7,050):
                                                            2,276          388            386
   # patient dischares
                                                         $2, 186        $3,222         $3,999
   Average cost/discharge
                                                            $4.          $7.             $9.
   Tota dollar (in mions)



       assoate with      poqualty car cases by the      th
       Next, using the same mathematical approach, projections were made for the costs
                                                         bed size categories. For example,
                                                                        quality car at
       sma   hospitas were paid $490,00 for 259 patients receivig poor
       averge cost of $1,908 per patient.


                                                            Small     Medium            Large
    Poor quality care caes (N=464):
                                                              259           122
    # patient discharges
                                                            $1,908       $2, 850        $3, 540
    Average cost/discharge

    Tota dollar (in millons)


                                                                                   car by the
        Dividig the dollar paid to hospitas for patients receiving poor quality
        dollar paid for    all adssions in the sample by bed size category yields the percentage
        of dollar assocated with poor quality 
  car.
:::;:::::::::;:::::::::::::::::::;:\:::::;::::::::::::::::::::::::::;::::::::::::::;:;::::::::::;::::::;:::;:::;:::::;::::::=::::::::::::::::::;:::::::::::::::::::::::::::::::::::::::::::::::::::::::;::::::::::::::
                                                                                                                                                                ::::::::::::::::::::
                                                                                                                                                                                :::: ::::::        ::::::::::::::::?:::::::::::::::::::::::::::::::::?:::::
                                                                                                                                                                                                                                                  ::::::::::::::;:::::::;:::::;:::::::::::::::::::::::::;:::::::::::::::::::::::::::
                                                                                                                                                                                                                                                                                                                  ::::::::::::::::::::::::::::::::::;::::::::::::::;::




                                                                                                                                                                                                Small                                       Medium                                                           Large

Percentage of dollar

     for          po qualty car cases

             We adjusted for the higher volume of discharges that occur in large hospitas, using FY
             1985 data S nmmin g the projections for each bed size category yields a
                                                                                     tota projected

             amount of approxitely $1. 2 billion paid by the Medicar progr for poor quality
              car.

 PPS                admisions (F 1985)                                                                                                                                                            Small                                       Medium                                                          Large

  # dichares (in mions)                                                                                                                                                                                  1.52

  Multiplied by average 
                                                           cost!
       discharge                                                                                                                                                                               $2. 186                                                $3. 222                                               $3. 999

  Yields dollar paid (in
       mions)                                                                                                                                                                                   $3, 323                                           $10,020                                               $14, 596

   Tuns peentage of sample
    dollar for  qualty                         po                                                                                                                                                 x-2                                                                                                               x..
        ca cass
   Yields dollar for poor
        qualty car (in mions)                                                                                                                                                                   $325.                                                  $460.                                                 $437.

    Tota dollar (in mions)
                                                                                                                                                                                                                                                                                                       $1, 224.4
         spnt on                         por qualty car:
                       APPENDIX F





         DISTRIBUION OF HOSPITALS BY NUER
          POR   ALTY            CAES N=239
         # O C Cases       Hos   itals   Percent
                                          33.
                                          24.
                                          15.




Totals          464          239         100.
                                                 APPENDIX G





                         CHISTICS OF HOITALS UITH 6+ PO ClITY         CAE       CASES         Il=2




                                              IlSSY  PR'I
                                                     DISCGES   SIZE
                                                                                TEING!
                                                                               ..IIiG                PRIT
                                                                                                     IDFIT
STATE        REICII   ADITS                    ADITS

                                      53.
                                      43.
                                      40.
                        30            36.
                                      30.
                                      30.
                                      30.
                                       30.
                                       26.
  Mil                                  26.
                                       26.
                                       26.
                                      .23.
                                       23.
                                       23.
                                       20.
                                       20.
                                       20.
                                       20.
                                        20.
                                                                                        liT
                                        20.

 TOTAL 1 
              630     177              113
    (X)                       (38.             (15.    (46.




1 PERCENTAGES ARE BASEQ ON THE FACT THAT THERE WRE 464   PO  aJLITY CARE CASES, 740 UNNECESSARY
                                                          050 PATIENTS.

ADMISSIa.S AND 74 PREMATURE DISCHARGES IN THE SAMPLE OF 7,

                       APPENDIX H





     DISTRIBUTION OF PATIENTS BY NUERS
                                 

                  OUALTY   CA   COC\     PROBLE
             (1331 Problems/464 Pat ents\
     i OC   Problems     i Patients      Percent
                                       115        24.
                                       127        27.
                                                  21. 12
                                                  10.




            1'0




Totals                                 464        100.
                             APPENDIX I





                COMPARISON BY TYPE OF HOSPITAL

                AVEGE LEGTHS OF STAY            ALOS
         Patients Receivin   Good and Poor 
     ualit       Care
                     POR             (N=4 64)    GOOD           (N=6 586)
CHCTSTICS                             ALS                           ALS
Small                  259                             017
Medium                 122                             266
Large                                  10.             303
Rural                  285                             391
Urban                  179                             195
Profit                                                 650
Nonprofit              425                             936
Teaching                               11.             770
Nonteaching            409                             816
                             APPENDIX J





             II         Fa CUllY OF   CA   PI    18133

                                                , PILBt     . PECE
       Care 0I   tted

   Serices/follow- up not   ordre
   Serf ce orre, bu:
   . inate/fncomlete
   . not pride
   . contraindfcated

                                                    058      79.

   . not prfde    in time to be useful

  l icatim of Care
   Incorret serices
   Umessary coml ication                            155      11.

          Care   Prde
   "rded seri ce uvary
   Unorded serices provide
I---te Doati
MTAL                                              1 , 331   100.
                               APPENDIX K





                         DISCHGE DISPOSITION uali                 Care
                ents   Rece
       Good and Poor


                                   N=7       050

                                   POR                     GOOD
                                         CAES               CAES
TYPE OF   DISCHGE PATIENS
                           076             264      56.     4 , 812      73.
Home                                                16.        366
Died                       442
                           670                      15.        600
Intermed. Care Fac.                                            140
Short-term Hosp.           158
                           390                                 375
Home Health Orders                                             122
Skilled Nurs.   Fac.       131
                           119                                 114
Other Institution
other
                                            464     100.       586       100.
  Totals                 7 , 050
                                        APPENDIX L





                COMPARISON BY TYPE OF HOSPITAL

               AVEGE AGE OF PATIENS RECEIVING
                          R AND GOD 
              ALITY
               POR CA (N=464) GOD                           (N=6, 586) DIFFERECE
CHCTSTICS                          AV. AGE                   A V . AGE   (YE)
Small              259                  78.           017     75.
Medium             122                  76.           266     73.
Large                                   74.           303     72.
Rural              285                   78.          391     75.
Urban              179                   75.          195     72.
Profit                                   77.          650       72.
Nonprofit          425                   76.          936       73.
Teaching                                 74.          770       71.
Nonteaching         409                  77.          816       74.




                COMPARSON BY                       E OF HOSPITAL

               AVEGE AGE OF                    DECEED PATIENS
               CEIVNG POOR                AN GOD        ALITY
               POR CA                     76)       GOD CA    (N=3 66)   DIFFERNCE
CHCTSTICS                           AV. AGE                   AV - AGE    (YE)
 Small                                   81.                    79.
 Medium                                  76.          121       77.       -0.
 Large                                   82.          150       76.
 Rural                                   80.          113       78.
 Urban                                   79.                    77.
 Prof it
                                83.                    77.
 Nonprofit                               79.          348       77.
 Teaching                                 80.         113       76.
 Nonteaqhinq                              80.         253       77.
                               APPENDIX M





              SEATUIi OF Pm ClITT CA              CAS IN JI FRCI        DRGS



                                                     ,ex GO CA          TOTAL'
                                                              CAS
                    DEIPTICl                         (11)    (11. 58)   (117   05)
                        SHO                                     356
127   HEAT FAIWRE AN

      SIMP PNEUIOUA AM PLEURISY.   PATIENTS
                                                                316        351
       OVR AG 69
                                                                245            261
140   ANGINA PECTCRIS

                                                                               245
182   DIGESTIVE DISOERS, PATIENTS OVER AGE 69

      STRacS, exCEPT TRANSIENT ISCHEMIC ATTACKS
                                                                 190           217

      BROCHITIS AND ASTHMA, PATIENTS OVR
                                                                 168           179
        AGE 69

      NUTRITIDW Al MISCELLAEOU METABIC
                                                                 159           173
        DISCDERS, PATIENTS OVER AGE 69

138   CAIAC ARHYTHMIA AM CCTIa.                                                166
       DISOERS, PATIENTS OVR AGE 69                              157

                                                                 129           146
      TRAIENT ISCHEIC ATTACKS
                                                                 121           130
      CHRa.IC OBTRUTIVE PUNARY DISEASE

      mAL                                              193
      (Pe ce)                                         (41.     (31.3)     (32.
                                     APPENDIX N




        PO CIITY CA                  CAS BY MA DIA(XTIC cATEGOY

                                                                   , QC   , All    % QC
                         DEIPTICJ                                         Adi ts
Diseases en       Disordrs of the Circulatory     System            107     643

Diseases en Disorders of the Respiratory System                             052

Diseases an      Disordrs of the Digestive      System

Diseases an       DiSordrs of the Nerv Sytem                              565

Diseases en       Disords of the Musloseletal Systea
   an Cotive Tissu                                                        627
Diseases an Disorders of the         Kidn an Urinary       Tract          332

Endrine , Nutritionl an Metabol           ic
   Diseases an Disorders
Menta l Diseases      an Disorders                                         112     14.
Diseases en Disorders of the Ear Nose en Throat                            155

Infect10U an Parasitic Diseases                                            108

Factors Influeing Health Status
  an Other cotact with Health services                                             13.
Bloo, Bloo Forming Orga
   an IlIilogical Diseases an Disorders
Disease an Disordrs of the Skin
            an
             Tissu an Breast                                               181

Heptcbi l iary Sytel an Panreas                                           194

    tane Abue and    tane             Inded
   Orgaic Metal Disordrs

Injur, Poisoning and Toxic Effects of Drugs                                        4.9
Diseases an Disorders of the Male         R    rodtive System             194       1.6
Myelopol iferative Diseases and Disorders
   an Poorly Differentiated Neolasm                                       120

DRG

Disease an Disorders of the Eye                                           104

Diseases an Disorders of the Femle Reprodtive System
Burns

Pregn, Chilclirth and the Puerperiun
APPENDIX 0

                                                         ..                                             ~~~~
                                                                                                                      1!"CI:!'. ':arp.
           r H. r.-\ Ii f.   U '\ T 0 J H f -\ II   Ii        H l ' \, '"   q R    \ (( f.                                it'




                                                                                                                     'I
                                                                                                                                   1(;
                                                                                                                7'

                                                                              I"
                                                                                        "r .
                                                                                                                      M erTf                ra nd

                                                                                   U(rh..             ". 1",-                     ....1(.:.-\
Date                                                                                                                                             .. I ..
From      William L. Roper , M. D.
                                                                                     1988 SE?      -7 PH I: 02                    ALHI
                                                                                                                                         1 (;­


          Administrator V.                                      VI
                                                                                                                                  (J(;C IG
                                                                                                                                 EX         SE(
Subject   OIG Draft Report                   Nationa1 DRG Validation Study, Quality of patiJktTta t'-:
          i ri Hospi tal s, II OAI- 09- 88- 00870

          The I nspector General
          Offi ce of the             Secretary



          We have revi ewed the OIG draft report that                                          exami nes the qual     i ty of care in
          hospitals under PPS. We      are concerned that the OIG study may result in
          misleading conclusions and incorrect impressions about quality of care in

          general, and the Peer Revie w Organization (PRO) program in particular.

          Our most significant concern is the report' s conclusion that, in effect,

          PRO judgments are insufficient because they are not identifying as many.

          quality problems as SuperPRO and th
 OIG' s own reviewer$. This would
          result in conti ued poor care for Medicare patients and the expenditure of

          mi 11 ions of do 11 ars for substandard care.

          The report' s conclusions indicate an apparent misunderstanding of the

          function of PROs vs. SuperPRO. The backbone of the PRO program is                 local
          physician peer review. The legislation mandated this approach and HCFA'
          management of the program has emphasized                                           it.
                                                                       Local peers can best judge
          the care rendered by local physicians within the broad context of

          professionally recognized standards. The SuperPRO, ike the OIG

          reviewers, is not hampered by the reality of dealing with a patient or

          with local conditions and practice patterns. Their view is, in some ways,

          an abstract, pure review of a medical record. While this type of review

          is valuable as ' a guide or as a art of an evaluation effort, we do not
          accept it as the definitive wor  on quality of care. In fact, it is for
          this reason that we use the SuperPRO findings carefully, in concert with

          other consultants and our regional offices, to determine if the

          performance of individual PROs needs improvement.

          We agree with OIG that SuperPRO findings and other measures should be used

          to improve PRO performance and we. are already making changes in our

          evaluation protocols. However, the SuperPRO findings should never

          represent the " last word" in any case under review.
          This draft report also does not take into account HCFA' s effectiveness

          initiative. A major thrust of this effcrt is to provide PROs with more

          objective review criteria and an improved review methodology. Of course,
          the par.ticipation of leading clinicians and health service researchers has
          been critical to this effort. Not only will the effectiveness initiative

          improve PRO review, but we believe it will contribute significantly to

          improvement of medical education and practice.

Page 2





In sum, while we agree with. numerous points raised in the study, we are

concerned that certai n i nappropri ate
                                      assumptions may make it
controversial and counter-productive effort.


Our specific comments on the recommendations are attached for your
cons i derat ion. Thank you for the opportun i ty to comment on th is draft
report.
Atta hment
          Comments of the Health Care Financin Administra ion o                the
               OIG Draft Report:       ationa
                                          DRG Validation Study,
                        .9uality of Patient Care in Hospitals,
                                    OMI- 09- 88- 00c70



OIG Recommendat ion

Immediately issue the regulations to implement the COBRA 1985 provision

gi vi ng PROs
            authori ty to deny Medi care reimbursement for patients
receiving substandard medical care.


HCFA ResjJonse

Thi s provi s i on is
                    one of the most controvers i a 1 and compl ex
responsibilities assigned to PROs. HCFA     has been working with
representat i ves of consumers, provi ders, phys i ci aps, and PROs to draft a
Not ice of Proposed Ru 1 emak i ng.These proposed ru 1 es have undergone
extensive review throughout the Department, including the               OIG.
                                                                      Presently,
the proposal is pending clearance by the Office of Management and Budget.

01 G Recommend at ion

Determine why PROs identify a substantially lower rate of poor quality

care cases than either the SuperPRO or the OIG.


HCFA Response

As previously mentioned, we believe comparing PRO findings with either OIG

or SuperPRO results is inappropriate. The PRO review process includes at
least two major steps which are not performed by the other mechanisms.

These are: (1) PRO physician reviewers must discuss the cases with the

attending physicians before making the final decision that a quality of

care problem exists; and (2) PRO physician reviewers must also take into

consideration local medical practices and other factors such as the

availability of appropriate ambulatory facilities. This does not mean

that we expect a lower level of care to be rendered in certain areas, but



standards. ­
that local peers can best determine the appropriateness of care rendered

by local physicians w;thin the broad context of professionally recognized



Our PRO monitoring and final evaluation protocols are designed to identify

prob 1 ems in PRO performance and in    it i ate appropri   ate   corrective act i on.
PROs that fail to substantially fulfill the requirements of their

contracts are either termi nated or not renewed on a noncompet i ti ve bas is.
During the first PRO Scope of Work, we recognized that there were problems
with the review determinations being made by PROs. As a result, 25 of the
first PRO contractors were not renewed noncompetitively and 2 PRO

contractors were termi nated.
Page 2





Additionally, in the second Scope of Work, we implemented the use of

generic quality screens to identify potential quality of care problems

that were not being satisfactorily addressed through PRO review. We are
and will continue to evaluate PRO review determinations, including
identifying poor quality of care problems, and initiate appropriate action

where requ ired.
01 G Recommend at ion

Deve lopacceptable di sagreement rates between PROs and the SuperPRO for
identified cases of poor quality care.


HCFA Response

In the current PRO performance eva uat ion protocol, we have developed
acceptable disagreement rates between PROs and the regional offices for

identified tases of    poor     quality of care.Disagreements between PROs and
SuperPRO for identified cases of poor quality care are analyzed by the

appropriate regional office and corrective action plans are established to

address i dent i fi ed problems in the PROs I performance. We are  current 1 y
considering incorporating the Super PRO review. results into our ongoing and

fi na 1. eva   luati on protocols.
OIG Recommendation

Incorporate reconci 1 i ati on of hi gh di sagreement rates into PRO performance
evaluations for consideration in renewal of PRO contracts.

HCFA Response

The disagreement rates have always been part of the overall PRO

performance evaluation system. In the past, xhe results of regional

office staff monitoring have been included in the final evaluation
package. As stated above, we are considering incorporating the SuperPRO
findings in the PRO performance evaluation protocol for the third PRO

Scope of Work.

Page 3





OIG Recommendation

Analyze quality review practices of PROs with low disagreement rates to

identify exemplary models and best practices which could be used to assist
other PROs.


HCFA Response


We will explore the possibility of identifying exemplary models of

detecting quality of care problems that could be applied to other PROs

systems. It is important to remember that the legislation authorizing the

PRO program requires local peer review. This legislative mandate limits

our ability to standardize some aspects of peer review , especially as it

relates to the use of specialists that may not be available in certain

States.
OIG Recommendation

Require that PROs continue to improve their identification and follow-up

of cases involving poor quality patient care in order to better target

prob 1 em hospi ta 1 s . and phys i ci ans. Approaches mi ght i nc 1 ude focus i ng on
types of hospitals, DRGs frequently associated with poor quality care or

patients at highest risk of receiving poor quality care.

HCFA Response


The third Scope of Work for PRO contracts includes increased emphasis on

the generation of profiles which will result in the accomplishment of this

recommndation. PROs will be required to generate physician , hospital
and DRG profiles which will assist them in identifying poor quality care

practices. Where program monitoring identifies deficiencies in PRO

generation and use . of profi 1es, PROs wi 11 be required to develop
corrective action plans.

